V A
NOTICE: All slip opinions and orders are subject to formal
revision and are superseded by the advance sheets and bound
volumes of the Official Reports. If you find a typographical
error or other formal error, please notify the Reporter of
Decisions, Supreme Judicial Court, John Adams Courthouse, 1
Pemberton Square, Suite 2500, Boston, MA, 02108-1750; (617) 5571030; SJCReporterSsjc.state.ma.us
SJC-12793
CARE AND PROTECTION OF A MINOR.

March 6, 2020.

Supreme Judicial Court, Superintendence of inferior courts.

The petitioner, the biological father of a minor child,
appeals from a judgment of a single justice of this court
denying his petition pursuant to G. L. c. 211, § 3.D2 We
affirm.
The child was the subject of a care and protection
proceeding in the Juvenile Court, After the trial concluded,
the petitioner filed a "Verified Emergency Time is of the
Essence Ex Parte Petition for Answer to Question of Law" in the
i

The petitioner purports to prosecute this petition "ex
parte." The parties in the underlying litigation were not named
as parties to the petition, and there is no indication that they
were served with the petition, They have not appeared in this
appeal.
See S.J.C. Rule 2:22, 422 Mass. 1302 (1996) (requiring
petitions filed pursuant to G. L. c. 211, § 3, to "name as
respondents and make service upon all parties to the proceedings
before the lower court"). See Adjartey v. Central Div, of the
Housing Ct. Dep't, 481 Mass. 830, 833 n.6 (2019); G.G.,
petitioner, 462 Mass. 1004, 1004 n.2 (2012) .
2 This is the second petition, pursuant to G. L. c. 211,
§ 3, that the petitioner has filed seeking a determination that
he had a right to a jury trial in a care and protection
proceeding involving the minor child. A different single
justice of this court denied relief on the first petition.
the petitioner failed to timely appeal from that judgment,
his motion for leave to file a late notice of appeal was denied.

i

2
county court, which the single justice treated as a petition
pursuant to G. L. c. 211, § 3, and denied. In essence, the
petitioner sought a declaration that he had a right to a jury
trial in the care and protection proceeding.
The single justice neither abused his discretion nor made a
clear error of law in denying the petition. See Commonwealth v.
Fontanez, 482 Mass. 22, 24 (2019). As we have said many times
in circumstances like,this, "[t]he single justice is not
required to become involved if the petitioner has an adequate
remedy," as the petitioner did here. __
Id. The petitioner could
have filed a notice of appeal in the Juvenile Court, see Mass.
R. A. P. 4 (a), as appearing in 481 Mass. 1606 (2019), and
appealed to the Appeals Court from the decree of the Juvenile
Court terminating his parental rights. See Adoption of Douglas,
473 Mass. 1024, 1026, 1029 (2016) (parent whose rights have been
terminated "may press an appeal challenging the adjudication of
the termination proceeding").
In addition, based on the materials before him, the single
justice was well within his discretion in concluding that
extraordinary circumstances requiring exercise of the court's
supervisory power were not present, The petitioner failed to
create a record demonstrating his allegations, i.e., he did not
"provide copies of the lower court docket entries and any
relevant pleadings, motions, orders, recordings, transcripts, or
ether parts of the lower court record necessary to substantiate
[his] allegations." Gorod v. Tabachnick, 428 Mass. 1001, 1001,
cert. denied, 525 U.S. 1003 (1998). And as stated, see note 1,
supra, he also failed to "name as respondents and make service
upon all parties to the proceedings before the lower court," in
violation of S.J.C. Rule 2:22, 422 Mass. 1302 (1996).
Judgment affirmed.
The petitioner, pro se.

A PPM'\ S
SJC-12403
Supreme Judicial Court of Massachusetts.

In re of
84 N.IUd 1254 (Mass. 2017) ' 478 Mass. 1015
Decided Nov i 0. 2017

SJC-12403
11-10-2017

CARE AND PROTECTION OF a MINOR.
The case was submitted on the papers filed, accompanied by a memorandum oflaw. Ilya l.iviz, pro se.
The case was submitted on the papers filed, accompanied by a memorandum of law.
Ilya Liviz, pro sc.
Jut 5 RESCRIPT'U! t $ The father of a child who is the subject of a care and protection proceeding in the Norfolk
County Division of the Juvenile Court Department filed a petition pursuant to G. L. c. 211, § 3, with a single
justice of this court seeking relief pursuant to the court's general superintendence power. The father is an
attorney who is representing himself. The record of material he has put before us is confusing, to say the least.
It appears that the child has been removed from his parents' custody and that the father contests the removal. In
his G. L. c. 211, § 3, petition he sought, among other things, a jury trial in the care and protection proceeding.
He also claimed that the Department of Children and Families has violated his due process rights and "nonparty participants" in the care and protection proceeding should have been sequestered during certain motion
hearings in the Juvenile. Court.
The single justice denied the petition without a hearing on May 5, 2017. The petitioner then tiled a petition for
a writ of certiorari with the United States Supreme Court on May 10, 2017. While the certiorari petition was
pending, the petitioner filed a motion with the single justice, on August 7,2017. for leave to file a late notice of
appeal from the denial of the G. L. c. 211, § 3, petition. The single justice denied the motion on September 12.
2017. The petitioner then filed a notice of appeal from the denial of that motion, and his appeal was entered in
this court on September 22, 2017. Shortly thereafter, the United States Supreme Court denied his certiorari
petition, on October 2, 2017.
1. The petitioner's appeal to this court involves only the denial of his motion for leave to file a late notice of
appeal. T he single, very limited issue that is properly before us is whether the single justice erred or abused his
discretion in denying that motion. Nevertheless, the multitude of papers that the petitioner has filed in this court
focus almost exclusively on the underlying merits ofhis G. L. c. 211. § 3, petition, and address only minimally
the issue of the late notice of appeal. He has set forth no cogent argument regarding that motion; he has not
shown good cause or excusable neglect for his late filing; and he has not put forth any argument at all as to why
the single justice erred or abused his discretion. In any event, we find no error.

casetext

1

in re of

84 N.E.3d 1254 (Mass. 2017)

2. Even if the single justice had authorized a late appeal, the petitioner would have fared no better. It was
incumbent on the petitioner "to create a record—not merely to allege but to demonstrate, i.e., to provide copies
of the lower court docket entries and any relevant pleadings, motions, orders, recordings, transcripts, or other
parts of the lower court record necessary to substantiate [his] allegations—showing both a substantial claim of
v iolation of a substantive right and that the violation could not have been remedied in the normal course of a
trial and appeal or by other available means." Gorod v. Tabachnick. 428 Mass. 1001, 1001. 696 N.E.2d 547,
cert, denied, 525 U.S. 1003, 119 S.Ct. 514, 142 L.Ed.2d 426 (1998), and cases cited. He did not do this. As we
have noted, he has filed a multitude of papers in this court, as he did before the single justice, all of which are
ltEodifficult to comprehend. His filings do not articulate * 1 >56 any clear arguments regarding a violation of a
i o t osubstantive 11 a! o right, or the absence of an adequate alternative remedy. On the basis of the materials before
him, the single justice acted well within his discretion in concluding that this case does not present a situation
where extraordinary rel ief from this court is required.
The order denying the motion for leave to file a late notice of appeal is affirmed.
So ordered.

sit* casetext

2

IV

No.

IN THE
SUPREME COURT OF THE UNITED STATES

L.Vi? ' l)\ D

V CVA

------------- ------ -—---------PETITIONER
(Your Name)
.

l/( £
VS.

St^pfUHH CO Ufa

,0lc

------------------------ —

—_— RESPONDENTS)

PROOF OF SERVICE

i, XIva Urn 6 l,b.
, do swear or declare that on this date,
ma y
, 202_q, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

AmtlHCY C'
l

L"f OFP'CQ -f05/w
Pi.A Cor ?c>W Flo op, BoStaM

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Aa/)V

-a

,20_2 o

DlD

t
(Signature)

“f/

EXHIBIT B
Order of First Circuit Court and Son's Emergency Verified Petition for
Writ of Flabeas Corpus filed in district court

Case: 19-1604

Document: 00117483060

Page: 1

Date Filed: 08/29/2019

Entry ID: 6278677

United States Court of Appeals
For the First Circuit
No. 19-1604
I.L., JR., son, by his biological parent Ilya Liviz, Sr., Dad, the Chief Jurist for Justice of National
_
— - --------------- Academy for Jurist of-USA,.
____
Petitioner - Appellant,
v.
SUPREME JUDICIAL COURT OF THE COMMONWEALTH OF MASSACHUSETTS,
Respondent - Appellee.

Before
Thompson, Kayatta and Barron,
Circuit Judges.
ORDER OF COURT
Entered: August 29, 2019
Appellant's "verified ex parte motion to: (1) vacate mandate (revoke)[;] (2) vacate
judgment[;] (3) re-open case[;] and (4) partial waiver of rules," treated as a motion to recall
mandate, is DENIED.

By the Court:
Maria R. Hamilton, Clerk

cc:

Ilya Liviz Sr.
Maura T. Healey

.

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
CASE NO. 1:19-cv-l 1289
ILYA LIVIZ JR. ("Son") by his biological )
parent ILYA LIVIZ SR. D.L.D., ("Dad") )
the Chief Jurist for Justice of
.)
National Academy For Jurists of USA
)
Petitioners
) "Dad and Son need to see each other for their
v.
) well-being; it is inhumane to not allow it..."
)

SUPREME JUDICIAL COURT OF THE)
COMMONWEALTH OF
)
MASSACHUSETTS ("SJC")
)
Respondents )

SON’S EMERGENCY VERIFIED PETITION FOR WRIT OF HABEAS CORPUS
from creators of
NATIONAL ACADEMY FOR JURISTS

100 LINES OF TRUTH
for Justice & Liberty that is Equal for all
Civil Rights in association with Civil Liberties
a privately owned National Academy For Jurists production
written by Chief Jurist for Justice Ilya Liviz Sr. D.L.D. inspired by True Events
presented in U.S. District Court for the District of Massachusetts
pursuant to law of United States Congress and the U.S. Constitution
guaranteed by Arts. I, §§ 9 & 10, and Amends. I, III, IV, V, VIII, IX & XIV
authorized by Civil Rights Act codified under 42 U.S.C. § 1983
in accordance with Fed. R. Civ. Pro. and Jurist’s Core Values
published by www.NAFJ.US on June 11th in the year 2019 of our Lord.
The Content of This Complaint Has Not Been Evaluated Pursuant to
Fed. R. Civ. Pro. Rule 12(b)(6); Viewer Discretion Is Advised - For
Reading Understanding and Comprehension, It Is Recommended The
Audience Attain Graduate Level Education or Street Equivalent!
Identification of minors/juveniles and other information warranting redacted as
ft rt
necessary pursuant to Local CM/ECF Adm. Pro. R. N. (1-5), & S., and Fed. R. Civ.
P. 5.2, Fed. R. Crim. P. 49.1, and the E-Government Act of 2002, personal
identifiers (P1D) is partially redacted because they are already known to the public.
And revealed by SJC in error. Approved for public reproduction by www.NAFJ.US

USA

II#

Private authority conferring honorary De Lex Doctorate ("D.L.D."); graduate degree of a Jurist
for Justice, with commitment to enforcing Civil Rights & Civil Liberties within the U.S. Courts.

(Jurisdiction & Venue)
1.
2.
3.
4.

This petition is presented to a federal Judge;
no whip cream, cherry, or chocolate fudge.
Nothing but truth I swear under pains and penalties;
the foregoing is true and correct by Dad as fiduciary.2

5.
6.
7.
8.

Deprived of rights you are of last resort,
redress to unlawful state custody falls upon this court.3
Pursuant to the U.S. Constitution you swore to uphold,
failure to do your job will come worse tenfold.

9. My Dad has been filling everything under the sun;4
10.1 would go see him, but my legs too short to run.
11. You have power to hear us because Dad exhausted all options,5
12. and "there is an absence of available state corrective process;".6
13.
14.
15.
16.

You MUST hear us, please your honor don't be offended;
but; "[t]he Privilege of the Writ of Habeas Corpus shall not be suspended,".7
As a reminder, this is not a "Case[] of Rebellion or Invasion; m8
it is based on sex discrimination; nothing to do with race cause we Caucasian. 9
(Parties)

17. My name is ILYA LIVIZ JR.; live in the Commonwealth; I am 4 years old;
18. My Dad also lives there; a dead beat, or so I was told.
19.1 whispered in his ear, "Dad what did you do?
20. But, all he said; don't worry Son, soon I will come for you.
21.
22.
23.
24.

This responded is the Supreme Judicial Court;
named as so because it gave DCF its full support.
DCF presented to the court what it intended to do,
and the court gave them the green light, requiring Dad to sue.

-See 28 U.S.C., § 1746(2).
•’ See 28 U.S.C., § 2254(a).
4 See e.g. Liviz v. Supreme Judicial Court of Massachusetts, dk. no. 17-12345 (2017). (Dismissed pursuant to
Younger abstention; petition for wit of certiorari denied.)
5 See 28 U.S.C., § 2254(b)(A).
6 See 28 U.S.'C., § 2254(b)(l)(B)(i).
7 See U.S. Const. Art. 1, § 9, at no. 2.
8 See ibid.
9 Mom is pasty white Irish American Jew, and Dad is Russian American Jew - but looks Spanish (FYI).

(Background)
25.
26.
27.
28.

Patiently I have been waiting;
sad night after day.
My dad is no where to find.
was it something I did, or say?

29.
30.
31.
32.

Last time I saw my Dad
seems like yesterday.
But. time is flying;
please help unite us tomorrow or today.

33.
34.
35.
36.

Keeping us in supervised room, was not fun at all;
we both felt the tension, no playing tag or dodge-ball.
1 recall Dad lifting me up to touch the ceiling,
some stranger there admonished him and killed the feeling.

37.
38.
39.
40.

That is why I ask for over-night;
why are the judges not making this right.
He is my Dad; and best Dad in the world,
we need an emergency hearing to get this resolved.

41.
42.
43.
44.

This was all caused by one judge;
ruling against my Dad all along.
We should not have to resort to sue;
#OurOpinionMattersToo.

45.
46.
47.
48.

He has been fighting to see me;
but it seems that you don't care.
Stop looking at his finances;
don’t treat me like a paid-for fare.

49.
50.
51.
52.

I used to live with my Dad before,
his jokes are bad; but with time I now adore.
And all of a sudden the State took me away,
nothing I can do, I'm helpless to my dismay.

53.
54.
55.
56.

It has been nine months as of now;
enough is enough, hear me out loud.
I love my Dad, he does not suck;
the State is hurting me I want him back!

57.
58.
59.
60.

Come find out Dad asked for a jury trial;
did the State respond, or answer with a denial?
No they did not, retain their power the State sought,
more important than liberty for which we all fought?!

61.
62.
63.
64.

Care & Protection ofMinor, 478 Mass. 1015 (2017) is real;
Supreme Judicial Court for Commonwealth made a deal;10
They clearly stated my Dad can ask for a Jury on appeal
Two years later, and still no answer is beyond unreal.

65.
66.
67.
68.

My Dad fights hard for me and sued the Full Court;
filed a State Removal Motion "Fall On Your Own Sword".
If you don't believe me check it out for yourself, ~
Docket SJ-2019-0068 is still sitting on their shelf.

69. Their job requires them to answer questions of Law;
70."... impartial interpretation,"11 as said in the Constitution to be sure.
71. Moreover the state legislature has made it clear,
72. question of law shall be answered especially one that we hold dear.
73.
74.
75.
76.

Massachusetts General Laws chapter two-eleven, section six,12
requires questions concerning trials shall get fixed.
And Massachusetts General Law chapter two-eleven, section five 13
mandates full court review without state judgment shall not survive.
(Civil Rights Violations)

77. The state allowed me to be with mom,
78. that is great, but why deny Dad all the fun?
79. Have you forgot the constitutional facts;
80. "equality under the law shall not be denied ... because of sex,".14
81.
82.
83.
84.

My current foster parent is my Aunt,
her fiance is cool, he chills; smokes a blunt.
But, why does she get all this federal support,
none of which is given to my Dad; his willing to comport.

85.
86.
87.
88.

Moreover, why has the state not answered Dad's question of Law
"No State shall enter into any Treaty, Alliance, or ... pass any Bill of Attainder,".15
State took me away from dad under M.G.L. c. 119, § 24,
but the Commonwealth Constitution offers parents a lot more.

10 See Core c?- Protection of Minor, 478 Mass. 1015, at last ^ (2017) ("... and that the violation could not have been
remedied in the normal course of a trial and appeal or by other available means.") (Emphasis added and citation
omitted.)
" See Pan The First, Art. XXIX.
l; See M.G.L. c. 211, § 6.
13 See M.G.L. c. 211, § 5.
u See Arts, of Amendment, Art. CV1.
b See U.S. Const. Art. I, § 10, at no. 1.

89.
90.
91.
92.

Pursuant to Arts. 12, & 15, with The Initiative II, § 2, at U 3
my Dad has "... the right of trial by jury"; judgment is void - we are free.
Please let us see each other on his birthday tomorrow;16
1 want to surprise him and cure his sorrow.

93.
94.
95.
96.

Clearly judge we badly need this honorable court's help,
no need for leap of faith, or overreach like backstroke of Michael Phelp.
Simply recognize the following is really simple,
it will not change state policy or cause a domino effect ripple.

97. My Dad has a mattress; a roof, and stable place;17
98. his drug free, no felonies, and a normal looking face.
99. He can pick me up on his birth-day, or any other day;
100.
please your honor just grant a hearing For God's sake.
The aforementioned is true, and correct, to the best of my knowledge, recollection, and
interpretation. Signed under pains and penalty of perjury on this eleventh day of June in the year
of 2019 of our Lord.
Respectfully submitted
Chief Jurist for Justice Ilya Liviz Sr. D.L.D.
FOR THE PEOPLE
by
JURIST FOR JUSTICE
of
UNITED STATE OF AMERICA

Chief Jurist for Justice and Advocate for
Civil Rights & Civil Liberties in U.S. Courts
NATIONAL ACADEMY FOR JURISTS
200 Central St., No. 1, Lowell, MA 01852
www.NAFJ.US | ilya.liviz@gmail.com
(978) 606 - 5326 | NAFJ No. 0001

16 Dad D.O.B. is June 12th, 1978 (turning 41 y.o.).
17 Dad has had a place to stay at 200 Central St., No.l, in Lowell, MA 01852 since October of 2012.

